<html>
<title> - SAVING LIVES: THE CARDIAC ARREST SURVIVAL ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


 
             SAVING LIVES: THE CARDIAC ARREST SURVIVAL ACT

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                         HEALTH AND ENVIRONMENT

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2000

                               __________

                           Serial No. 106-99

                               __________

            Printed for the use of the Committee on Commerce





                    U.S. GOVERNMENT PRINTING OFFICE
64-769CC                    WASHINGTON : 2000





                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Health and Environment

                  MICHAEL BILIRAKIS, Florida, Chairman

FRED UPTON, Michigan                 SHERROD BROWN, Ohio
CLIFF STEARNS, Florida               HENRY A. WAXMAN, California
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 PETER DEUTSCH, Florida
RICHARD BURR, North Carolina         BART STUPAK, Michigan
BRIAN P. BILBRAY, California         GENE GREEN, Texas
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
CHARLIE NORWOOD, Georgia             THOMAS M. BARRETT, Wisconsin
TOM A. COBURN, Oklahoma              LOIS CAPPS, California
  Vice Chairman                      RALPH M. HALL, Texas
RICK LAZIO, New York                 EDOLPHUS TOWNS, New York
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN B. SHADEGG, Arizona             JOHN D. DINGELL, Michigan,
CHARLES W. ``CHIP'' PICKERING,         (Ex Officio)
Mississippi
ED BRYANT, Tennessee
TOM BLILEY, Virginia,
  (Ex Officio)

                                 (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Adams, Robert T., Partner, Wilson, Elser, Moskowitz, Edelman, 
      & Dicker, L.L.P............................................    13
    Conner, Scott, Vice President, Health, Safety, & Community 
      Services, American Red Cross, accompanied by: Don Vardell, 
      Red Cross Operations Officer...............................    17
    Hardman, Richard, NREMT-P, EMS Training Coordinator, Clark 
      County Fire Department.....................................     8
    Lazar, Richard A.............................................    21
Additional material submitted for the record:
    Health Industry Manufacturers Association, prepared statement 
      of.........................................................    34

                                 (iii)




             SAVING LIVES: THE CARDIAC ARREST SURVIVAL ACT

                              ----------                              


                          TUESDAY, MAY 9, 2000

                  House of Representatives,
                             Committee on Commerce,
                    Subcommittee on Health and Environment,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room 2322, Rayburn House Office Building, Hon. Michael 
Bilirakis (chairman) presiding.
    Members present: Representatives Bilirakis, Upton, Stearns, 
Burr, Ganske, Bryant, Brown, Stupak, Green, Strickland, 
Barrett, and Capps.and .
    Staff present: Robert Gordon, majority counsel; Mark Wheat, 
majority counsel; Robert Simison, legislative clerk; Bruce 
Gwinn, minority professional staff; and John Ford, minority 
counsel.
    Mr. Bilirakis. The hearing will come to order.
    Good morning. This morning the subcommittee is holding a 
hearing and markup of H.R. 2498, the Cardiac Arrest Survival 
Act of 2000. This important legislation was introduced by my 
Florida colleague, Congressman Cliff Stearns, and I hope that 
Mr. Stearns is on his way here. I am sure he would like to make 
an opening statement in this regard. I want to take this 
opportunity to commend him for his dedication in advancing this 
life-saving measure.
    As we consider the bill before us, I would note for the 
record that the jurisdiction of this subcommittee encompasses 
many contentious issues, and achieving a consensus can often be 
quite difficult. We frequently find ourselves presented with 
seemingly insurmountable problems, while the solutions remain 
illusive. Today, I am pleased to say, is not one of those 
occasions. Each year a quarter of a million Americans die 
without warning due to cardiac arrest. Many of these victims--
our colleagues, friends, and loved ones--could be saved if new, 
portable medical devices called ``automated external 
defibrillators,'' or AEDs, were used.
    AEDs can analyze heart rhythms to determine if a shock is 
necessary, and, when warranted, deliver a life-saving shock to 
the heart.
    One of our witnesses this morning, Mr. Robert Adams, had 
his life saved by an AED and is here with his son to share his 
story.
    The Cardiac Arrest Survival Act of 2000 directs the 
Department of Health and Human Services to develop guidelines 
for the placement of AEDs in Federal buildings and to provide 
for relief of liability where gaps in coverage exist under 
State law. This simple, common-sense measure has the potential 
to save countless lives.
    I want to welcome all of our witnesses and to very 
sincerely thank them for their commitment to advancing this 
very important legislation. I hope all of our colleagues will 
join me in supporting passage of this critical bill.
    I now yield to the ranking member, Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Thanks to Dr. Hardman and to Mr. Adams, Mr. Conner, and Mr. 
Lazar for joining us today.
    Fewer than 5 percent of out-of-hospital cardiac arrest 
victims survive. That is a sobering statistic. Here is another: 
sudden cardiac arrest takes more than 250,000 lives each year. 
The American Heart Association characterizes the critical 
actions after an individual experiences cardiac arrest as the 
``chain of survival.'' The single most important critical step 
is the first one. Cardiac arrest victims must receive care 
immediately, or their chance of survival plummets. Every minute 
counts, literally. According to the Heart Association, the 
chance of surviving drops about 10 percent per minute after a 
cardiac arrest occurs. That is why access to automated external 
defibrillators can make such a tremendous difference. Access to 
this equipment could save 50,000 lives each year.
    The Cardiac Arrest Survival Act promotes access to AED 
equipment in Federal and other public buildings across the 
country. AED technology can be used to determine the need for 
defibrillation and to administer it in a safe and effective 
manner. It gives us a way to overcome the otherwise inevitable 
lag time between an arrest and treatment.
    The majority and minority have worked out solid compromise 
language that provides Good Samaritan partnership to AED users 
and the equipment owner in those States that do not currently 
have AED Good Samaritan protections in their laws.
    I look forward to hearing from our witnesses, and am 
pleased we have been able to work effectively on a bipartisan 
basis to bring this measure to a subcommittee vote.
    Mr. Bilirakis. I thank the gentleman.
    Mr. Stearns is recognized for an opening statement, the 
author of the bill.
    Mr. Stearns. Thank you, Mr. Chairman. I appreciate having a 
hearing on this bill.
    I am tempted to say the world will little note nor long 
remember what we do here, but I think thousands and thousands 
of Americans will not forget.
    Between 200,000 and 300,000 Americans' lives are lost every 
year because of sudden cardiac arrest in the United States. 
But, Mr. Chairman, it is estimated that up to 30 percent of 
these victims could be saved if they had immediate access to 
external automatic defibrillators.
    For the last several years, I have worked closely with the 
American Heart Association, the American Red Cross, and local 
emergency medical systems to develop Congressional legislation 
on defibrillators. Working together, we have developed, as my 
colleague has pointed out, a bipartisan bill to remove the 
barriers to widespread adoption of these life-saving devices.
    Mr. Chairman, I have here almost 40 individual groups from 
the American Heart Association, the American Red Cross, down to 
the Institute of Critical Care Medicine--all of these groups, 
40 of them, have supported this bill.
    But let me say this morning this is what the bill does not 
do: it does not give people who purchase or use defibrillators 
in good faith full protection from frivolous lawsuits. We may 
not want to force people to provide medical care to someone 
having a heart attack, but if they are willing to do so we 
should not put them at risk of being sued for unlimited damages 
if something goes wrong.
    This legislation also directs the Secretary of Health and 
Human Services to develop guidelines for the placement of 
defibrillators in Federal buildings. It is inexcusable that we 
do not have these lifesaving devices widely available in 
Federal buildings. I mean, we are talking about something that 
saves lives. I mean, the debate is almost like talking about 
the fire extinguisher 100 years ago. These should be put in all 
the Federal buildings and public places where people 
congregate.
    We need to be a role model for the private sector by 
demonstrating our commitment to protecting the lives of Federal 
employees, military personnel, and private citizens who are 
visiting our Federal museums, Social Security offices, and 
various parks and recreational areas.
    This bill does not, however, force any new regulation or 
obligation on the private sector, and the bill does not preempt 
State law, where the State has already provided immunity for 
the persons being sued.
    This bill, frankly, is more of a gap filler. It only 
applies where the State has not yet legislated in a particular 
area.
    I have over 130 cosponsors--it is bipartisan--H.R. 2498, as 
well as letters of support from a great many organizations, 
including the National Safe Kid Campaign, the National Fire 
Protection Association, the American Academy of Pediatrics, the 
American Association for Respiratory Care, the International 
Association of Fire Chiefs--and the list goes on and on and on.
    Mr. Chairman, we have made every effort to work in a 
bipartisan manner in putting together this hearing and markup, 
and hope to continue this constructive relationship until this 
bill finally becomes law.
    Again, I would thank you, Mr. Chairman, and also Mr. 
Bliley, for your support in bringing this important legislation 
before the committee. We are one step closer this morning to 
saving the lives of every American.
    Thank you.
    Mr. Bilirakis. I thank the gentleman.
    I have not mandated it, but I would hope that our opening 
statements here will also serve as our opening statements for 
today's markup, in the interest of time and in consideration of 
our witnesses.
    The gentlelady from California is recognized for an opening 
statement.
    Ms. Capps. Thank you, Mr. Chairman. I thank you for holding 
this hearing and markup today on a life-saving piece of 
legislation, the Cardiac Arrest Survival Act.
    I want to commend my colleague, Mr. Stearns, for 
introducing this legislation.
    As a co-chair here in the House of the Heart and Stroke 
Coalition, I have a special interest in the area of heart 
disease. This coalition is a bipartisan, bicameral group which 
works closely with the American Heart Association, and our 
purpose is to heighten awareness of heart attack, stroke, and 
other cardiovascular disease here on the Hill, but also in the 
wider community. Additionally, the coalition works to promote 
research opportunities in the area of heart disease and stroke 
and acts as a resource center on these issues.
    The Cardiac Arrest Survival Act does two key things. First, 
it instructs the Secretary of Health and Human Services to make 
recommendations to promote public access to defibrillation 
programs in all Federal buildings and other public buildings 
across the country. These recommendations would ensure the 
health and safety of all Americans by encouraging ready access 
to the tools needed to improve cardiac arrest survival rates.
    Second, the act extends Good Samaritan protections to the 
automatic external defibrillator, AED, users and the acquirers 
of the devices in those States that do not currently have the 
AED Good Samaritan protections. This protection will help 
encourage lay persons to respond in a cardiac emergency by 
using an AED.
    These defibrillators, AEDs, are small, easy-to-use, laptop-
sized devices that can analyze the heart rhythms of a person in 
cardiac arrest to determine if a shock is necessary and if it 
is warranted to deliver a life-saving shock to the heart. Every 
minute that passes before a cardiac arrest victim's heart is 
defibrillated--shocked back into rhythm--his or her chance of 
survival decreases by as much a 10 percent. As a result, less 
than 5 percent of out-of-hospital cardiac arrest victims 
survive.
    When this happens in our neighborhood, in our community, 
God forbid, in our family the impact is so devastating. Just 
last week in Santa Barbara, where I live, a 25-year-old 
professional athlete collapsed during a workout. Bystanders 
started CPR. He was transported to an emergency room. He did 
not survive. We will never know if an AED would have made the 
difference. It is so worth the try.
    I applaud the chairman holding this hearing and subsequent 
markup today.
    The American Heart Association estimates that, with 
increased access to defibrillators, up to 50,000 lives could be 
saved each year. That is sufficient reason for us to move this 
legislation.
    I yield back the balance of my time.
    Mr. Bilirakis. I thank the gentlelady.
    Dr. Ganske for an opening statement.
    Mr. Ganske. Thanks, Mr. Chairman.
    I want to give credit to the author of the bill, and also 
to the minority. For once, we have worked together in a 
bipartisan fashion on an important bill.
    It is true that there are idiopathic causes of cardiac 
fibrillation, but by far and away the most common cause is 
coronary artery disease, acute MI, and the most common reason 
for that is tobacco.
    Now, the ranking member of this committee and I have a bill 
that would give the FDA authority to regulate tobacco and 
nicotine. We now have 68 bipartisan cosponsors. I am wondering 
when this committee is going to have hearings on our bipartisan 
bill on the No. 1 public health issue before the country.
    Tobacco kills over 400,000 people each year. Each day, 
today, for instance, 3,000 children or kids less than 18 will 
start smoking, and 1,000 of them will end up dying of their 
disease.
    You know, when I look at this defibrillator bill, it 
reminds me of a billboard that has been shown somewhere around 
the country, and I will show that to you. This billboard is 
sort of a parody on the points that tobacco companies give for 
prizes, and it says, ``The more you smoke, the more cool gear 
you will earn. For instance, you can earn an all-expense paid 
trip to a cancer clinic of your choice for 2,000 points; or you 
can earn a deluxe carrying case, a coffin, for 10,000 points; 
or, for 1,000 points, you can earn a portable respirator.'' But 
pertinent to this hearing is this little device here. For 5,000 
points, Mr. Chairman, you can earn a sport defibrillator.
    Mr. Chairman, we have a major, major problem. The No. 1 
public health problem before this country is the use of 
tobacco. Other than, for instance, the American public 
exercising more and losing weight, there is no other thing that 
could make the public healthier than to do something to prevent 
the tobacco industry from enticing kids to start to smoke. That 
is what those 1996 FDA regulations were all about.
    By a 5-to-4 Supreme Court decision, Sandra Day O'Connor, in 
her majority opinion, said, ``We just do not think that 
Congress has given the FDA authority to regulate tobacco.'' But 
you read the last paragraph. It says, ``But that does not mean 
that we do not think there is not ample reason for the FDA to 
have that authority.''
    Mr. Chairman, I am asking you: when is this subcommittee 
and committee going to deal with the No. 1 public health issue 
before our country?
    Mr. Bilirakis. Is that a question for the Chair?
    Mr. Ganske. That is a question.
    Mr. Bilirakis. During your opening statement, which is 
about to expire?
    Mr. Ganske. That is the end of my statement, Mr. Chairman.
    Mr. Bilirakis. The response to your question is that this 
subcommittee, as you well know even before you came to the 
Congress, has tried to deal with that particular subject. It is 
a very difficult subject.
    I have requested hearings of the full committee chairman. I 
have gotten assurance from him that we will hold not only one 
hearing on your and Mr. Dingell's bill, but a series of 
hearings. I cannot give the gentleman any specific dates 
insofar as that is concerned.
    Mr. Ganske. Mr. Chairman, I will not offer any amendments 
today.
    Mr. Bilirakis. The Chair appreciates that.
    Mr. Ganske. And I do want to commend Mr. Stearns for this 
bill.
    Mr. Bilirakis. The gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairmen, for calling the hearing 
and the markup today. As a cosponsor of the Cardiac Arrest 
Survival Act, I am pleased to see the subcommittee marking up 
this important initiative today. I congratulate my colleague 
from Florida for this legislation.
    Each year, thousands of lives are lost because the medical 
technology necessary to save them is not available. This loss 
of life is particularly sad, given the fact that machinery such 
as automated external defibrillators, if available, could 
prevent such deaths.
    In my home State of Texas, we had 57,000 Texans die of 
cardiovascular disease in 1997. Perhaps with the installation 
of defibrillators, some deaths would have been prevented.
    Today, we can still take one small step toward improving 
the health care of some Americans, and particularly those who 
work in and visit our Federal buildings, but so much remains to 
be done so that all Americans, regardless of their age and 
economic status or place of employment, receive the quality 
health care they deserve.
    Following up on my colleague from Iowa, particularly our 
subcommittee's attention to our seniors--and, Mr. Chairman, I 
have a long statement following up Mr. Ganske's issue on 
tobacco, but mine is on prescription drug medication for 
seniors. I recently surveyed constituents in my District 
concerning their priorities, and heard from hundreds of those 
constituents and middle-income seniors who worked hard and paid 
into the system, and now they are having to choose between 
buying pharmaceuticals and buying groceries.
    These seniors sent me a clear message that Congress must 
act to help older Americans pay for prescription medication. I 
have seniors like Norma Keyes of Houston, who writes, ``I need 
help with my prescriptions. I spend over half my Social 
Security for prescriptions. I cannot get enough money ahead to 
pay my house, much less my taxes.''
    I hear from seniors like Jay F. Craddock of Houston, who 
says, ``My wife's prescription bill is $300 or better each 
month.''
    Norma Grams of Humble writes, ``The elderly must decide to 
buy medicine or food or pay heating or electric with their 
Social Security check. It is unfair.''
    Joyce Belou wrote, ``I am now retired, after working 53 
years, and I have Medicare and a supplement, but no 
prescription drug relief at all. I cannot afford the $250 per 
month for prescription drugs, so I cannot take the medication 
daily. I skip days.''
    Mr. Graff from Channelview writes, ``My mother receives 
$947 a month, and $800 of that goes to prescriptions.'' She 
receives $947 a month, and $800 goes to prescriptions.
    Mr. Chairman, we need help, and hopefully our subcommittee 
will not let Ways and Means take the issue away from us. I want 
to thank my colleagues on the committee who are working on it, 
but hopefully we will continue. I know we have had two hearings 
on it. Hopefully we will expand that, because this is an issue 
I think our subcommittee needs to address, our full committee 
needs to address, and, obviously, this Congress needs to.
    Thank you.
    Mr. Bilirakis. I thank the gentleman.
    I would merely say to the gentleman from Texas what he 
already knows, and that is how strongly I feel about that 
subject, and if the leadership on both sides of the aisle--and 
I emphasize both sides of the aisle--sincerely wants a piece of 
legislation this year, we will have it, but it is going to take 
that.
    The other gentleman from Tennessee, Mr. Bryant, for an 
opening statement.
    Mr. Bryant. Thank you, Mr. Chairman. I do not know if I 
have an opening statement. I do not have another issue to talk 
about here.
    Mr. Bilirakis. The Chair appreciates that.
    Mr. Bryant. I would like to talk about perhaps TVA and 
that.
    It is an interesting experience to be here in Washington. 
And I understand. These are friends of mine, my colleagues, and 
I understand the feeling about these issues, as I think we 
share those feelings, maybe in different degrees and maybe see 
other angles to this, but who can be against keeping young 
people from starting smoking, and who can be against providing 
in some measure, well-though-out, workable form, prescription 
drugs for those senior citizens who cannot afford them.
    But today we are here to talk about this bill, which is an 
important bill, also, and I just want to commend very quickly 
the chairman for calling this hearing and Mr. Stearns and all 
the supporters of this bill for it. I think, with the 
development of the technology that we have today, it is 
realistic to have this equipment available in Federal 
buildings, and, as was mentioned earlier in some of the 
statements, as much as to send a message or a symbol to the 
private sector also that this should be considered as 
appropriate for their buildings, also, but not in the form of a 
mandate.
    Again, I want to thank all of you that are involved in 
this. I thank the panel for being here today.
    Some of us will be in and out quite frequently with other 
meetings we have got to go to, so I apologize in advance for 
that, but I look forward to the balance of the hearing and 
hearing the testimony and the markup of this bill and yield 
back the balance of my time.
    Mr. Bilirakis. I appreciate that.
    The gentleman from Michigan is recognized.
    Mr. Upton. Thank you, Mr. Chairman. I want to commend you 
and my colleague from Florida, Mr. Stearns, for pursuing this 
legislation, bipartisan from the get-go. I want to remind folks 
that this bill that we are considering today has the potential 
to save many lives by making automated defibrillation more 
immediately available, and a reminder to us all that for every 
minute that passes before the heart resumes to a normal rhythm 
causes the chance of survival to drop by 10 percent. We need 
this legislation passed today. I am looking forward to working 
with my colleagues to make sure that that is done. Thank you 
for your leadership, both of you.
    Mr. Bilirakis. And I thank the gentleman.
    I believe that completes the opening statements.
    [Additional statement submitted for the record follows:]
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Today's Subcommittee hearing and markup is the result of the good 
work of my friend from Florida, Mr. Stearns, and, of course, the 
leadership of Subcommittee Chairman Mr. Billrakis. Between 200 and 300 
thousand lives are lost every year to sudden cardiac arrest in the 
United States. It is estimated that up to 30% of these victims could be 
saved if they had access to immediate help, including defibrillation. 
H.R. 2498, the Cardiac Arrest Survival Act, would help achieve this 
goal.
    In 1990, the American Heart Association challenged the medical 
device industry to develop a life saving machine that could be used 
safely even by ordinary people. The device industry met this challenge.
    Unfortunately, it is hard to locate the device in a public place 
because of liability fears. No one wants a lawsuit against them because 
they acquired a device to make the workplace safer. And in fact, 
businesses are now getting hit by the trial lawyers in both 
directions--sued if they buy a defibrillator and something goes wrong, 
and sued if they don't buy a defibrillator and someone has a heart 
attack. We need to stop these lawsuits.
    This bill would protect our good Samaritans who help save the lives 
of our fellow Americans. It would also protect people who acquire the 
devices to make their buildings or offices safer for the public. This 
is good public policy, and necessary to encourage life saving devices 
in the private sector.
    While protecting people who use or acquire defibrillators, this 
bill does not place any new requirements, obligations, or regulations 
on the private sector.
    H.R. 2498 has been cosponsored by 130 Members, including numerous 
bipartisan Members from this Committee and this Subcommittee. It has 
been strongly endorsed by the National Safe Kid Campaign, the National 
Fire Protection Association, the American Academy of Pediatrics, the 
American Association for Respiratory Care, and the International 
Association of Fire Chiefs.
    Mr. Stearns' bill is timely, necessary, and a fine addition to this 
Committee's long-standing efforts on liability reform.

    Mr. Bilirakis. The panel today consists of: Dr. Richard 
Hardman, Ph.D., EMS training coordinator for the Clark County 
Fire Department, Las Vegas, Nevada; Mr. Robert T. Adams, 
Esquire, partner in Wilson, Elser, Moskowitz, Edelman, & Dicker 
of New York; Mr. Scott Conner, vice president, health, safety, 
and community services of the American Red Cross, based here in 
Washington; and Mr. Richard A. Lazar, Esquire, of Portland, 
Oregon.
    Gentleman, I thank you very much, on behalf of myself and 
my colleagues, for coming, many of you from long distances, to 
be here today to share your stories with us and supporting the 
need for this legislation.
    Dr. Hardman, please proceed.
    I would advise all of you that you have submitted written 
statements, and they are a part of the record, so I would hope 
that your testimony would complement those statements. I will 
set the clock for 5 minutes--hopefully you will keep your 
remarks within that period of time.
    Please proceed, Doctor Hardman.

      STATEMENTS OF RICHARD HARDMAN, NREMT-P, EMS TRAINING 
  COORDINATOR, CLARK COUNTY FIRE DEPARTMENT; ROBERT T. ADAMS, 
 PARTNER, WILSON, ELSER, MOSKOWITZ, EDELMAN, & DICKER, L.L.P; 
   SCOTT CONNER, VICE PRESIDENT, HEALTH, SAFETY, & COMMUNITY 
SERVICES, AMERICAN RED CROSS; ACCOMPANIED BY: DON VARDELL, RED 
         CROSS OPERATIONS OFFICER; AND RICHARD A. LAZAR

    Mr. Hardman. Good morning. As you already know, my name is 
Richard Hardman. I am pleased to be here today before the 
subcommittee.
    I have been involved in emergency medical services for over 
the past 16 years. I started off functioning as a field fire 
fighter/paramedic, as well as a flight paramedic. I hold a 
doctoral degree in both health administration, as well as 
molecular and cellular biology, and have been appointed as an 
associate professor in the School of Medicine for the 
University of Nevada. I have been employed by the Clark County 
Fire Department in the Las Vegas area for the past 10 years, 
the last 5 of which I have spent researching sudden cardiac 
arrest. Today, my appearance before you is that on behalf of 
the American Heart Association.
    As we have already heard earlier today, approximately 
250,000 Americans suffer sudden cardiac arrest every year. This 
represents about half the deaths caused by cardiovascular 
disease, which, in turn, represents almost half the deaths that 
occur in the U.S. annually. As was stated earlier, only about 5 
percent of these individuals end up surviving.
    Experts have estimated that somewhere between 20,000 to 
100,000 lives could be spared annually should such a program as 
we have been discussing with automatic external defibrillators 
be placed. As we have already heard, again, the chances of 
survival decrease, on average, by about 10 percent per minute.
    In 1995, as part of the Clark County Fire Department's 
quality assurance process, I researched sudden cardiac arrests 
occurring in our jurisdiction. What I found is the 
preponderance of the cardiac arrests were occurring in our 
large hotel casino settings, as well as other facilities with 
high population densities, such as our McCarran International 
Airport, which I am sure some members have been to.
    In our rapid response, all medical emergencies, including 
sudden cardiac arrest, our response times are approximately 
4\1/2\ minutes. Even with that profound response time, our 
cardiac arrest survival rate at that point in time was only 
slightly over 14 percent.
    Therefore, we devised a targeted first responder AED 
program, which we implemented in March 1997 in Las Vegas. The 
program was modeled after the American Heart Association's 
chain of survival, and we identified our weakest link in this 
chain as being that of early defibrillation.
    In order to obtain a number of defibrillators required in a 
given property, we established the 3-minute rule. They needed 
to have enough defibrillators in order to have the 
defibrillator at a victim's side in 3 minutes or less from the 
time that they were notified. The rationale for this was the 
knowledge that biological death or brain injury begins 
approximately 4 to 6 minutes after the heart ceases to 
function.
    Although initially the idea of having nonmedical personnel 
using a defibrillator raised some concerns and some questions 
over complexity and unrealistic expectations, those quickly 
disappeared and were addressed by additional insurance riders 
prior to the Good Samaritan legislation in the State of Nevada 
taking place.
    Today, we train more than 6,500 security officers, with an 
average internal response time of less than 3 minutes, and 
shocks delivered an average of less than 4 minutes. We have 
documented thus far over 200 sudden cardiac arrest events where 
the AED has been used, and to date we have demonstrated the 
highest out-of-hospital sudden cardiac arrest survival rate in 
the world, that being 57 percent.
    These results are easily duplicated. They are duplicated by 
strategic placement of defibrillators in buildings and training 
individuals responsible for their use. The AEDs are 
inexpensive, extremely low maintenance, dependable, and safe to 
use.
    The American Heart Association's heart-saver AED program, 
for example, teaches an individual both cardiopulmonary 
resuscitation, as well as the use of an AED, in less than 4 
hours.
    Due to the unique condition under which the program exists 
in the Las Vegas, Nevada, area, I would like to show you a 
videotape of actual surveillance camera footage from a cardiac 
arrest event. I understand that this will take my testimony 
past the 5-minute period; however, I request your indulgence.
    Mr. Bilirakis. Thank you. By all means, Dr. Hardman. I 
thought possibly we might show it before you began your 
testimony, but this is a good time for it.
    [Videotape presentation.]
    Mr. Hardman. Being surveillance video, there is no 
associated audio with it, so, if you do not mind, I will 
narrate it for you.
    Notice the gentleman toward the left-hand side of the 
screen there at the gaming table. He is experiencing what he 
described as light-headedness. Recently, he had relocated to 
the southern Nevada area from the midwest. He had a prior 
history of cardiovascular disease, and he said this event that 
he was experiencing was drastically different than his 
myocardial infarction he had previously.
    The gentleman goes into cardiac arrest and collapses into 
the gentleman seated to his right, as you will notice.
    Very shortly thereafter, some of the patrons notice this is 
taking place. If you will note, the time is approximately 1326, 
or 1:26 p.m., when he went into cardiac arrest.
    Several of the patrons there are helping the gentleman down 
to the ground to offer some assistance, and the female that you 
see that just entered the screen in the kind of yellow shirt 
there, she happens to be an off-duty emergency room nurse who 
comes over to offer assistance, as well.
    This is a true testament that cardiac arrest can occur at 
any time in any place without any warning.
    As you can see, this gentleman, though he had a prior 
history, presented differently. He did not alert anybody around 
him that he was having an issue with his heart, as he had 
prior.
    The bystanders there are offering some assistance. Our 
first security officer--you see him taking his jacket off in 
the lower right-hand corner of the screen--he goes down to 
assess the victim's current status, as well as, as you will 
see, to initiate CPR, along with some assistance from the nurse 
that I pointed out previously.
    Our camera angle is going to change here in just a moment 
as the surveillance camera operator now moves the angle down so 
we get a better view of the process taking place.
    You will note the defibrillator in the lower right-hand 
corner now at center screen has just arrived. We are 
approximately 1 minute and 50 seconds into this gentleman's 
cardiac arrest.
    CPR, as you will note, is being performed by the gentleman 
who was initially seated to the victim's left at the gaming 
table.
    The defibrillator is opened up. The pads--which you will 
probably see demonstrated later--are taken out. The adhesive 
backing is taken off. The nurse you will see is exposing the 
chest, and security facilitates the placement of the AED.
    We are now 2 minutes and 20 seconds into this gentleman's 
cardiac arrest.
    The defibrillator is attached. At this point it is 
analyzing. The computer algorithm internally in the machine is 
analyzing electrical activity of the heart, very appropriately 
identifies it as ventricular fibrillation.
    A shock is required. Watch closely as that shock--one and 
only shock that was required--at 2 minutes and 45 seconds, 
slightly less than 3 minutes from the time this gentleman's 
cardiac arrest occurred.
    That one and only shock that was required terminated the 
very lethal ventricular fibrillation that he was in, allowing 
the heart to resume its normal organized activity.
    There are some supportive measures, as you will see, being 
administered to the cardiac arrest victim.
    At this point in time, the gentleman does have a return of 
spontaneous circulation, meaning he has a pulse again on his 
own. There is some spontaneous breathing taking place. And they 
roll the victim up on his side here and put him in a recovery 
position, as we call it, awaiting EMS personnel to arrive.
    We are going to jump ahead in time again. If you watch the 
upper portion of the screen, we are approximately 9 minutes 
from the time this gentleman went into cardiac arrest. You will 
see some feet enter into the video and a manual defibrillator 
placed on the ground in the upper right-hand portion of the 
screen. This is the EMS personnel arriving, some 9 minutes from 
the time this gentleman suffered cardiac arrest.
    As we have already heard, 10 percent per minute. Would this 
gentleman's outcome have been the same had he waited on those 
trained EMS responders in order to deliver that life-saving 
shock?
    EMS personnel assess the victim. They are advised by the 
security personnel, as part of their training, that he was 
shocked one time. They are administering some advanced care, as 
you will make out here.
    There is just a small segment left, and then I will end the 
video. I just wanted you to be able to see the gentleman's 
outcome, which will be very apparent here in just a few 
moments.
    They are starting IVs, administering medications, and so 
forth, as per standard protocol in this type of victim.
    In the next scene, we are going to see the victim is 
becoming more alert, is actually somewhat combative as EMS 
personnel try to protect him from injuring himself. He is not 
tolerating the oxygen mask that was once on his face just a few 
moments ago.
    We are going to jump again ahead in time for the last 
portion of the video, and then I will stop this.
    Watch as the paramedic is leaning over in center screen 
there moves out of the way. Pay close attention to the victim, 
once he, again, moves off of the screen to the right. The 
victim is now conscious and alert, oriented to his 
surroundings, having dialog with the paramedic there at his 
side rendering care 20 minutes, approximately, from the time 
that he was clinically dead--heart, breathing, level of 
consciousness all were not present.
    This is just, again, to demonstrate the profound impact 
that a properly implemented defibrillator program can have.
    I would strongly urge your support for H.R. 2498. As you 
can already see, again, very, very profound impacts in saving 
lives.
    Thank you for your time.
    [The prepared statement of Richard Hardman follows:]
 Prepared Statement of Richard Hardman, Director of EMS, Clark County, 
           Nevada on Behalf of the American Heart Association
    Good morning, my name is Richard Hardman, and I am pleased to be 
here today to address the members of this subcommittee. I have been 
involved in emergency medical services (EMS) for the past 16 years. 
Since that time, I have worked as a firefighter/paramedic and as a 
flight paramedic. I hold a Doctor of Philosophy in both Health 
Administration as well as Molecular/Cellular Biology and am an 
Associate Professor of Medicine for the University of Nevada School of 
Medicine. I have been employed by the Clark County Fire Department in 
Las Vegas, Nevada where I serve as the EMS Training Coordinator. My 
focus for the past 5 years has been that of Sudden Cardiac Arrest (SCA) 
research. Today, I appear before you on behalf of the American Heart 
Association.
    Approximately 250,000 Americans suffer Sudden Cardiac Arrest each 
year.\1\ This represents about half of the deaths caused by 
cardiovascular disease, which in turn represents almost half of all 
deaths in the United States annually.\2\ Of these, an average of only 
5% survive to hospital discharge despite prehospital care by Emergency 
Medical Services (EMS) personnel. Experts estimate that 20,000 to 
100,000 lives could be saved annually by greater access to Automated 
External Defibrillators (AEDs).\3\ It has been demonstrated that the 
chances of survival from SCA decrease by approximately 10% per minute 
until defibrillation, which is the definitive therapy in three-quarters 
of these victims.\4\
---------------------------------------------------------------------------
    \1\ Myerburg R, Kessler KM, Castellanos A. Sudden cardiac death: 
epidemiology, transient risk and intervention assessment. Ann Intern 
Med. 1993; 119:1187-1197
    \2\ Myerburg R, Castellanos A. Cardiac arrest and sudden cardiac 
death. In: Braunwald E, ed. Heart Disease: A Textbook of Cardiovascular 
Medicine. Philadelphia, Pa: WB Saunders; 1996.
    \3\ Implementing an Early Defibrillation Program, Spacelabs 
Medical, Inc. 1992
    \4\ Cummins R, Thies W, Paraskos J, et al. Encouraging early 
defibrillation: the American Heart Association and automated external 
defibrillators. Ann Emerg Med. 1990; 19:1245-1248
---------------------------------------------------------------------------
    In 1995, as part of a Quality Improvement (QI) process for Clark 
County Fire Department, I researched SCA occurring in our jurisdiction. 
The majority of our SCA incidents were occurring in our large hotel/
casino settings and other facilities with a high population density 
such as our McCarran International Airport. Even with our rapid 
response to all medical emergencies (including SCA) of approximately 
4.5 minutes, our survival rate for SCA was only slightly over 14%.
    The Clark County Fire Department Targeted Responder Automated 
External Defibrillator (AED) Program was implemented in March of 1997 
in the Las Vegas, Nevada area with Security Officers as our AED 
operators. The program was modeled as to strengthen the ``chain of 
survival'' as promoted by American Heart Association. Our ``weak link'' 
was identified to be early defibrillation.
    In order to obtain the number of defibrillators required to equip a 
site, we devised the ``three minute rule''. This guideline suggests 
that each property implementing an AED program have a sufficient number 
of devices so that the maximal time that elapses from notification to 
arrival at the victim's side with the AED is 3 minutes. The rationale 
was based on the fact that ``biological death'' (brain insult) begins 
at approximately 4-6 minutes after cardiac function ceases.
    Although initially somewhat hesitant at the idea of having non-
medical personnel using a defibrillator, the properties that have 
adopted AED programs are the biggest proponents of the technology. 
Concerns over potentially causing harm, complexity in use, and 
unrealistic expectations quickly disappeared.
    To date, we have trained more than 6,500 Security Officers with an 
average internal response time of less than 3 minutes and first shock 
delivered in less than 4 minutes. We have documented more than 200 SCA 
events thus far with the AED having been used and have demonstrated the 
highest out-of-hospital cardiac arrest survival in the world (57%) 
having saved the lives of visitors and employees alike.
    These results are easily duplicated with the strategic placement of 
sufficient numbers of Automated External Defibrillators and the proper 
training of individuals responsible for their use. The AEDs are 
inexpensive, extremely low maintenance, dependable and safe to use. The 
American Heart Association ``Heartsaver AED'' program teaches an 
individual both Cardiopulmonary Resuscitation (CPR) and use of the AED 
in approximately four (4) hours.
    Due to the unique conditions under which our program exists, I will 
now show you videotape footage of an actual cardiac arrest 
resuscitation as captured by surveillance camera to demonstrate my 
points.
    The gentleman seated in the upper left side of the screen recently 
moved to the Las Vegas area. He had a prior history of coronary artery 
disease (CAD) as well as a prior heart attack and bypass surgery. While 
seated at the gaming table, he described as having a sensation of 
light-headedness, a symptom not experienced with his prior heart 
attack. You can see his somewhat confused state as he leans his head on 
the table and collapses in cardiac arrest. This is a true testament to 
the fact that cardiac arrest can occur at any time, any place with 
little or no warning.
    Several concerned citizens seated near him offer assistance as they 
place him on the floor. An off-duty nurse happens to be nearby and 
attends to the victim as well. You see cardiopulmonary resuscitation 
(CPR) being performed by bystanders and security alike while other 
security personnel are responding with the AED.
    The defibrillator in the lower right hand of the screen is applied 
to the victim's chest. Note the security personnel clearing the victim 
in order to allow the AED to analyze the need for defibrillation 
(shock). The computer algorithm identifies the cardiac rhythm and 
appropriately a shock is advised. The security personnel make certain 
that the victim is clear and that there is no contact as the shock is 
delivered. This was a single shock required to terminate the chaotic 
rhythm ventricular fibrillation and allow the heart to begin to 
function in an organized manner once again. This all occurred in less 
than three minutes from the time of collapse (one could infer a 70% 
chance of survival).
    Supportive measures are provided by security and bystanders while 
waiting on EMS personnel to arrive. You will note EMS personnel 
arriving at the top portion of the screen approximately 9 minutes after 
the cardiac arrest occurred. It is only reasonable to ask if this 
gentleman would have had the same outcome had he waited for these 
professionals to deliver the shock.
    Security personnel are indicating that a single shock was delivered 
as EMS personnel assess the victim's status. Here you see them 
initiating advanced care as the start an intravenous (I.V.) line. The 
victim becomes somewhat combative, as his brain becomes re-introduced 
to normal blood flow as EMS attempt to keep him from injuring himself.
    Note the condition of the victim as the paramedic with his back to 
us moves out of the way in the center of the screen. The victim is 
conscious, alert, and conversing with EMS personnel approximately 20 
minutes since he suffered sudden cardiac arrest. This scenario has 
repeated itself time and time again in the hotel/casino setting in Las 
Vegas as well as other sites that have adopted the AED in their 
workplace.
    Automated External Defibrillators are safe to use inexpensive, 
dependable, low maintenance and have a profound impact on the chance 
for survival in an otherwise dismal prognosis.
    The Cardiac Arrest Survival Act provides an important step toward 
removing remaining barriers to broad availability of automated external 
defibrillators, and sends a positive message to the American public 
about the importance of prompt response to emergency situations. I urge 
your support for HR 2498.

    Mr. Bilirakis. Thank you, sir.
    We gave the doctor an extra 5 or 6 minutes because I felt 
that it was important that we see that video.
    Mr. Adams?

                  STATEMENT OF ROBERT T. ADAMS

    Mr. Adams. Good morning. My name is Bob Adams, and, as was 
noted by the chairman, I happen to be an attorney, but that is 
not why I am here today. I am here as a survivor. Something you 
just saw on that tape--and, in all fairness, that is the first 
time I have seen that tape, and it gave me some chills, because 
I know that a couple of years ago that was me on the ground, so 
I just want you to bear with me a little bit.
    I just want to tell you a little bit about myself, because 
I think it is very important as to my pedigree in terms of what 
this story means and what this bill means.
    I was an individual for whom health was always a non-issue. 
At 42 years old, I was former captain of my college basketball 
team, went to Europe with an American all-star team, 1 of 12 in 
this country selected, went and played all the Olympic teams 
around Europe, signed with a French professional team and 
stayed there for 3 years. I came back, went to graduate school 
and law school, but stayed active in athletics. I am an avid 
tennis player, and also someone who became involved refereeing, 
and at this point in time I have moved on to such things as, 
this past year, refereed for the second time the NCAA 
tournament, 1 of 96 officials selected in this country.
    But I am going to bring you back 2 years ago, because I 
think it is very, very important. I heard that story about the 
25-year-old professional athlete, and that also brought chills 
to me.
    I have three young children. At the time, there was a 1-
year-old; Ryan, who is with me, right behind me, a 5-year-old 
at the time; and I had an 8-year-old.
    As I said, I had never been sick in my life. I was the kind 
of person--in my law firm we have 250 lawyers in my firm in New 
York. I was always that person who everybody said, ``Boy, I 
hope when I get to his age I can be in his shape.'' I am a non-
smoker. I have two parents who are still alive, who have just 
turned 80 years old. I am not overweight.
    I referee in the Big East and around the country. To do 
division one basketball at the level I do, the NCAA requires 
you to go for an extensive physical. I would go every year and 
pass with flying colors.
    Lo and behold, a couple of years ago on July 4 weekend I 
went--before I left the law firm, which is right in mid-town 
Manhattan--I commute in and out of Grand Central Terminal, as 
do half a million other Americans who commute to southern 
Connecticut and Westchester County. I had said so-long to 
everybody, I was wishing to go and play a little golf that 
afternoon, have a bar-b-que with friends that night. 
Unfortunately, I felt terrific. No such things as dizziness, 
nothing such as that. I had no warnings whatsoever. But when I 
went to catch that train that afternoon, I collapsed, 
inexplicably collapsed. I was as limp as that individual on 
that tape.
    The only reason I am here today is because someone had the 
foresight 2\1/2\ years ago, before there were such things as 
Good Samaritan laws, someone had the foresight at Metro North 
in New York to purchase an automatic defibrillator. It had been 
delivered on July 2. I collapsed on July 3. It had never been 
taken out of the box. They prayed that it had batteries in it. 
The people had been trained a week prior. They were not even 
sure, themselves--just like anything you have done--that they 
knew how to work this thing, but there was only one hope. They 
were doing CPR on me because, if anybody has been through Grand 
Central Station, there is a multi-million dollar renovation 
going on, and there happened to have been a couple EMTs who 
were also subcontractors in the construction industry.
    I went down in the lobby in the grand concourse there, 
which I am sure many of you people probably in this room have 
been around. They were able to get to me and start giving me 
CPR, which, obviously, in the last 2 years I know quite a bit 
about the chain of survival and what it means and every minute 
what it means. I did not know it then, because there was no 
reason, just like probably everybody sitting in this room. 
``No, that does not happen to me.''
    Well, I submit to you I am probably today the healthiest 
person in this room, but that day inexplicably I fell. Seven 
days I was in Bellevue Hospital. Some of the top cardio 
physicians in this world worked on me. They never found a 
cause. They still do not know why it happened. But I am living 
proof that it can happen to anyone, anywhere, at any time.
    I submit to you that when the chief of cardiology at NYU 
Medical Center, when they were dispatching me--and they did put 
an internal EAD in my heart--they said to me--I remember there 
were seven of these specialists who had been called to my 
hospital bed at that time, and they said, ``You know 
something--'' because my major avocation that I loved to do was 
to referee college basketball. And I said, ``Am I going to be 
able to referee again?'' And they said to me--and I remember 
them looking around the room, saying, ``You know something? You 
are probably healthier than anyone in this room, so you can go 
back to being a college basketball referee.''
    A year later, I was selected to go to the NCAA tournament. 
I was in the Superdome with 40,000 people sitting around, 
refereeing Kentucky and New Mexico State, and I looked around 
and I said, ``This is really some story.''
    My son has never heard this story because he was too young 
to really listen to it. Well, I am now his Little League coach, 
and I go to my daughter's soccer games. I am here because of 
that machine and because some people wanted to save lives.
    I just ask this committee not to get caught up in the 
politics of it all and just do the right thing, and understand 
that Bob Adams would not be sitting here. That young military 
officer in the Pentagon, maybe he would have been there if 
there was a defibrillator in the Pentagon that day a year ago. 
I was just a lucky one. It was fortuitous that I fell where I 
fell. If I had stayed in the office that extra couple of 
minutes, I was dead. If I had gotten on that train a minute 
later, I was dead. I was clinically dead. But I am here today.
    I make time for whatever I can do to tell my story, because 
I think it is a story that needs to be told, so I am here to 
educate people and help just share my story.
    I met and I applaud Congressman Stearns. I met him 1\1/2\ 
years ago when I came to speak. At that point in time, for 
instance, there were 18 States that had passed Good Samaritan 
laws. There are now 46. It is a story that needs to be told.
    But the sad story is that 2\1/2\ years later they still 
need Bob Adams to come tell that story. I hope that I never 
have to come here again--that there are thousands of Bob Adams 
stories out there.
    When Rich Hamburg from the American Heart Association gets 
on the phone--and I do anything I can when they call me. I 
support whatever I can support.
    I do not know all the politics of the bill, and I apologize 
for that, because, like I said, I do not come here as an 
attorney, I come here as a survivor. I just ask that you people 
consider the fact that you are going to hear a lot about 
statistics today, but just remember something: there are faces 
and families behind these statistics, and there are little boys 
like this, little 8-year-old boys like this who would not have 
a father. And there are a lot of people who are not here, 
because 99 percent of the people in New York die from sudden 
cardiac arrest because the response time is 12 minutes. It just 
so happened that those people at Metro North had that unit, or 
there was no hope for me.
    I just welcome any questions, any thoughts at the end of 
this, and I thank you very much for your time.
    [The prepared statement of Robert T. Adams follows:]
      Prepared Statement of Robert Adams, Cardiac Arrest Survivor
    Good Morning, my name is Bob Adams and I am a cardiac arrest 
survivor. I would like to thank the Subcommittee for inviting me to 
testify today to share my personal story of survival.
    On July 3, 1997, I was walking through Grand Central Station in New 
York City when my heart suddenly stopped and I collapsed. I was 42 
years old, a lawyer in a firm with 450 people, a husband and the father 
of three young children. I was in perfect health, and always had been. 
From the time I played collegiate basketball at Colgate University, up 
to my current avocation as a NCAA basketball referee, health was always 
a non-issue.
    Nevertheless, without warning, without any history of heart 
disease, I went into cardiac arrest the day before a holiday weekend, 
in a location through which half a million people pass every day. My 
heart stopped, and I wavered between life and death. There was no chest 
pain, no nausea. One minute I was on my way home, the next I was on the 
floor.
    For me, timing was everything. On July 2, the day before I 
collapsed, the automated external defibrillator that the Metro North 
Commuter Railroad had ordered for use in Grand Central Station had 
arrived and the staff had been trained in its use.
    My heart was stopped for approximately 5 minutes while the AED was 
unpacked from its shipping box and everyone hoped it had come with 
charged batteries. Thanks to the trained staff at the station, and an 
EMT who happened to be present, my life was saved.
    Doctors have never discovered what happened to my heart. It simply 
stopped. Whatever it was, my wife Sue and I, along with our three 
children, Kimberly, 10; Ryan, 8; and Kyle, 4, are very glad there was 
an AED at Grand Central Station that day.
    An automated external defibrillator, or AED, is a small, laptop 
sized, easy-to-use device that analyses cardiac arrest victims' heart 
rhythms for abnormalities. If the machine detects an abnormality, it 
administers a life-saving shock to the heart. That is what I got, a 
life-saving shock to the heart. And every day since, my family and I 
are thankful for the folks who responded, and the device that saved my 
life.
    I was rushed to Bellevue Hospital where the doctors declared me 
healthy. I have never learned what caused my arrest. I now have an 
implanted defibrillator in my chest, which is capable of shocking my 
heart, should I ever arrest again.
    What I do know is that luck was on my side that day. If I had 
stayed in my office a few minutes longer, I would be gone. But, I don't 
want the next person who experiences an arrest to have to depend upon 
luck. I have joined forces with the American Heart Association to fight 
for expanded access to public defibrillation, including making AEDs, 
and the training necessary to use them, more readily available in 
public facilities. That is why I am here today. The Cardiac Arrest 
Survival Act is a vital step in combating the 250,000 deaths per year 
from cardiac arrest. Congress can and should take a leadership role in 
spreading the message that we can fight cardiac arrest by putting the 
tools to save lives in the hands of those most likely to respond, the 
lay public.
    As you will hear throughout today's hearing, time is of the essence 
in treating cardiac arrest. For every minute that passes before a 
victim's heart is returned to normal rhythm, his or her chances of 
survival falls by as much as 10 percent. I was down for five minutes. I 
am a very lucky man. The people who could save me were the people on 
site. Traffic congestion and complex building structures often delay 
emergency response, particularly in a dense urban area like New York 
City. My ten minutes would have been up long before those folks could 
have gotten to me. I needed people in the building to have the device 
and to know how to use it. They did, and that is why I am alive today.
    You can help save lives by helping put these devices in the hands 
of people in federal buildings across America. When the Secretary of 
Health and Human Services makes recommendations for public access to 
defibrillation programs in federal buildings, she and you, the 
Congress, will be saying that my life matters, as do the lives of the 
250,000 others that suffer sudden cardiac arrest every year. We can and 
should do what we know works in fighting cardiac arrest. And, putting 
the voice of the federal government behind this effort is invaluable as 
people like me work with the American Heart Association to expand 
access to defibrillation in cities and towns across this country.
    I am also here today for the people who haven't been as lucky as I 
was. I am here for the young military officer who suffered cardiac 
arrest and died in the Pentagon because the emergency response time was 
too long and there was no AED available. I am here so that doesn't have 
to happen again. I am also here for you, because unfortunately you, 
your loved ones, or your staff could be next. I had no warning, I was 
perfectly healthy. It could be any of you.
    I am also here to thank you for taking up this important cause and 
fighting for people like my family and me. In particular, I would like 
to thank Representative Stearns, who I have worked with on this bill 
and who has shown tremendous dedication to fighting cardiac arrest. I 
would also like to thank the many members of the Subcommittee who are 
co-sponsors of the bill. My three kids would like to thank you as well.
    Like you, I am anxious to hear from the other witnesses here today. 
They are the people that work in the field everyday to make public 
access to defibrillation a reality, including the trainers and the 
emergency medical systems. I am grateful for their work and I look 
forward to their testimony.
    I would be happy to answer any questions you may have. Thank you, 
again, for the opportunity to share my story with you.

    Mr. Bilirakis. Thank you so much.
    I would suggest that you have made an impact, both you and 
Dr. Hardman and I am sure the other two witnesses as well.
    Mr. Conner, please proceed.

                    STATEMENT OF SCOTT CONNER

    Mr. Conner. Thank you. I must say I am very humbled by 
following Mr. Adams and his heartwarming testimony. I have 
already invited him to speak at our upcoming Health and Safety 
Conference. Ryan will be glad to hear this--it is at 
DisneyWorld. He will be invited, along with the other two kids.
    Mr. Chairman and members of the subcommittee, we are very 
pleased to be here today to share with you how the American Red 
Cross is providing training for AEDs. My name is Scott Conner, 
vice president of health, safety, and community services in the 
American Red Cross.
    For more than 85 years, we have been dedicated to helping 
make families and communities safer at home, at work, and 
around the world. Each year, we train almost 12 million people 
in vital life-saving skills. Sudden cardiac arrest is one of 
the leading causes of death in the United States, taking more 
than 250,000 lives each year.
    The cause is not well understood. It can strike anyone at 
any time, anywhere, as we have seen today. Many victims have no 
history of heart disease, and, unlike a heart attack, many 
victims have no prior symptoms.
    The survival rate of those who suffer sudden cardiac arrest 
can be significantly increased if a chain of events known as 
the ``cardiac chain of survival'' is undertaken: step one, 
calling 911; step two, administering CPR; step three--and this 
is extremely important--providing early access to 
defibrillation; and, step four, early access to advanced life 
support. A break in any of the four links in this chain can 
compromise a victim's chance for survival.
    As Mr. Stearns mentioned, studies indicate that survival 
rates could rise from the current 5 percent to as much as 30 to 
40 percent if CPR is administered at 2 minutes and a shock 
delivered at 4 minutes, followed by advanced life support at 8 
minutes. However, early defibrillation is becoming widely 
recognized as the most critical step in restoring cardiac 
rhythm and resuscitating a victim.
    When a person suffers sudden cardiac arrest, an AED can 
restore the heart's natural rhythm by applying an electrical 
shock. AEDs are small, light-weight, inexpensive, and easy to 
use, with little more than 4 hours of training needed to 
operate these life-saving devices in a safe and effective 
manner.
    AEDs are becoming more widely available and being used in a 
wide range of settings--for example, airplanes, office 
buildings, industrial plants, and, as you saw right here, 
casinos.
    Both Mr. Upton and Ms. Capps referred to the fact that a 
victim's chance of survival decreases about 10 percent with 
every minute that defibrillation is delayed. Response times for 
paramedics or other advanced life support often exceed 10 
minutes. You saw on the tape it was about 9 minutes. And when 
they do arrive, they often do not have the equipment necessary 
for defibrillation. Only 25 percent of basic life support 
ambulances and less than 1 percent of police vehicles are 
currently equipped with defibrillators.
    On-site and widespread deployment of AEDs is the most 
feasible method of achieving defibrillation in the critical 
first minutes of sudden cardiac arrest.
    The American Red Cross provides two types of AED training, 
the first specifically designed for first responders, those who 
are most likely to be on the scene of an accident, such as 
police, fire fighters, and lifeguards. Most recently, we have 
developed a 4\1/2\ hour course designed for the general public, 
which combines adult CPR training with AED skills training. 
This course is designed especially for business and industry, 
focusing on the lay rescuer in the work place.
    Since January, 1999, approximately 14,000 people have been 
trained by the Red Cross to use AEDs through our training 
courses. Training is done through our extensive network of over 
1,200 chapters nationwide. Our Red Cross lifeguard training 
program is being revised to include AED training, and other Red 
Cross first aid and CPR courses are expected to include AED 
training as a course component.
    The Red Cross wants to see as many sudden cardiac arrest 
victims saved as possible, and we believe this can be 
accomplished by strategically placing defibrillators in public 
places and by training people in CPR and the use of AEDs. 
Studies show that, with greater access to AEDs, 250 lives may 
be saved each day.
    The American Red Cross national headquarters has 
implemented our own AED program and placed devices on every 
floor of our Falls Church, Virginia, location, as well as in 
all national headquarters facilities in the Washington area. 
Staff and security personnel have been trained to use the 
devices in the event of an emergency.
    AED placement and training is also required in Red Cross 
chapters who are participating in the program that link CPR 
with AED technology.
    Don Vardell, Red Cross operations officer, is here this 
morning to provide a brief EAD demonstration following my 
remarks in about a minute.
    Mr. Chairman and members of the subcommittee, the American 
Red Cross thanks you for your leadership and for holding 
today's hearings on this important public health issue. As one 
of the largest employers in the country, the Federal Government 
has the opportunity to provide its employees with access to 
this life-saving technology and to protect those from liability 
who are trained to use these important life-saving devices.
    It is our belief that the Cardiac Arrest Survival Act has 
significant potential to save lives, and we commend you for 
your commitment.
    Thank you very much.
    Don will demonstrate now.
    [Demonstration of the automatic external defibrillator.]
    [The prepared statement of Scott Conner follows:]
Prepared Statement of Scott Conner, Vice President, American Red Cross 
                 Health, Safety and Community Services
    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to share with you how the American Red Cross is providing 
training for an important lifesaving device know as the Automated 
External Defibrillator (AED). My name is Scott Conner, and I am the 
Vice President of Health, Safety and Community Services at the American 
Red Cross. For more than 85 years the American Red Cross has been 
dedicated to helping make families and communities safer at home, at 
work and around the world. Each year we train almost 12 million people 
in vital lifesaving skills.
    Sudden cardiac arrest is one of the leading causes of death in the 
United States, taking more than 250,000 lives each year. Sudden cardiac 
arrest is an abrupt disruption of the heart function causing lack of 
blood flow to vital organs resulting in loss of blood pressure, lack of 
pulse and loss of consciousness. The cause of sudden cardiac arrest is 
not well understood. It can strike anyone, at anytime, anywhere. Many 
victims have no history of heart disease, or if heart disease is 
present it has not functionally impaired them. Unlike a heart attack, 
which is the death of a muscle tissue from loss of blood supply, many 
victims of sudden cardiac arrest have no prior symptoms. The survival 
rate of those who suffer sudden cardiac arrest can be significantly 
increased if a chain of events known as the ``cardiac chain of 
survival'' is undertaken: step one--calling 911, step two--
administering CPR, step three--providing early access to defibrillation 
and step four--early access to advanced life support. A break in any of 
the four links in this chain can compromise a victim's chance for 
survival. Published studies indicate the survival rates could rise from 
the current 5 percent to as much as 40 percent if CPR is administered 
at 2 minutes and a shock delivered at 4 minutes followed by advanced 
life support at 8 minutes. However, early defibrillation is becoming 
widely recognized as the most critical step in restoring cardiac rhythm 
and resuscitating a victim of sudden cardiac arrest.
    When a person suffers sudden cardiac arrest, an AED can restore the 
heart's natural rhythm by applying an electrical shock. AEDs are small, 
lightweight, inexpensive and exceptionally easy to use with a little 
more than four hours of training needed to operate these lifesaving 
devices in a safe and effective manner. AEDs are becoming more widely 
available and being used in a wide range of settings, including 
airplanes, office buildings, industrial plants, casinos, golf courses, 
cruise ships, sports arenas and health clubs. We know that a victim's 
chance of survival decreases about 10% with every minute that 
defibrillation is delayed. Response times for paramedics or other 
advanced life support often exceed 10 minutes and even when they 
arrive, they often do not have the equipment necessary for 
defibrillation. Only 25 percent of basic life-support ambulances, 10-15 
percent of emergency service fire units and less than 1 percent of 
police vehicles are reportedly equipped with defibrillators. A study 
published in the Journal of the American Medical Association found that 
in New York City, where the average response time from patient collapse 
to delivery of the first electric shock is more than 12 minutes, only 
1% of patients survive sudden cardiac arrest. On-site and widespread 
deployment of AEDs is the most feasible method of achieving 
defibrillation in the critical first minutes of sudden cardiac arrest.
    The American Red Cross provides two types of AED training, the 
first specifically designed for first responders--those who are most 
likely to be on the scene of an accident such as police, firefighters, 
security officers, lifeguard and flight attendants. Most recently the 
Red Cross developed a 4\1/2\-hour course designed for the general 
public which combines adult CPR training with AED skills training. This 
course is designed especially for business and industry, focusing on 
the lay rescuer in the workplace. The American Red Cross Workplace 
Training: Adult CPR/AED course will help business and industry further 
protect the health and safety of their employees by ensuring that 
trained lay rescuers are prepared with the skills and equipment to save 
a life from sudden cardiac arrest at the workplace.
    Since January 1999 approximately 14,000 people have been trained by 
the Red Cross to use AEDs through our Professional Rescue and Workplace 
CPR/AED training courses. Training is done through our extensive 
network of over 1,200 chapters nationwide. Our Red Cross lifeguard 
training program is in the process of being revised to include AED 
training and other Red Cross first aid and CPR courses are expected to 
include AED training as a course component in the near future. The Red 
Cross wants to see as many sudden cardiac arrest victims saved as 
possible and we believe this can be accomplished by strategically 
placing defibrillators in public places and by training people in Adult 
CPR and the use of AEDs. Studies show that with greater access to 
lifesaving devices such as AEDs, 250 lives may be saved each day.
    The American Red Cross National Headquarters has implemented its 
own AED program and placed devices on every floor of our Falls Church, 
Virginia location as well as all national headquarters facilities in 
the Washington Metro area. Staff and security personnel have been 
trained to use the devices in the event of an emergency. AED placement 
and training is also being required in those Red Cross chapters who are 
participating in the AED program that links CPR/AED training with AED 
technology. We believe Red Cross AED training gives employees the 
confidence to act in an emergency situation and the skills to create a 
safe and healthy workplace. Don Vardell, Red Cross Operations Officer, 
is here this morning to provide a brief AED demonstration concluding 
these remarks.
    Mr. Chairman and Members of the subcommittee, the American Red 
Cross thanks you for your leadership and holding today's hearing on 
this important public health issue. As one of the largest employers in 
the country, we believe that with enactment of the Cardiac Arrest 
Survival Act, the federal government has the opportunity to provide its 
employees with access to this lifesaving technology and also to protect 
those from liability who are trained to use these important lifesaving 
devices. It is our belief that this legislation has significant 
potential to save lives, and we commend you for your commitment.

    Mr. Bilirakis. The AED determines whether further shocks 
are necessary; is that right?
    Mr. Vardell. Yes, sir.
    Mr. Bilirakis. Any questions of this gentleman at this 
point?
    Mr. Upton. What happens if someone is touching the patient?
    Mr. Vardell. Well, the worst thing that will happen is the 
patient will not get all the energy that he or she requires. 
Most of the devices start off with a low energy. There is a 
risk of someone else getting injured or getting a little 
electrical shock, but, again, the most important thing is if 
the patient's heart needs this shock, it needs the shock.
    Mr. Barrett. How much is the device?
    Mr. Vardell. They are all about $3,000.
    Mr. Bilirakis. Is there more than one manufacturer?
    Mr. Vardell. There are approximately three major 
manufacturers right now. These are the top two most people use 
right now.
    And, again, these are AEDs, totally automated devices. They 
are not designed to turn back into a manual mode for enhanced 
life support providers.
    Mr. Bilirakis. And if the amount or usage were expanded--
let's say doubled or tripled or whatever the case may be--would 
the cost drop?
    Mr. Vardell. Probably so. Just like cell phones, when they 
first started out, were $3,000 apiece.
    Mr. Conner. I think we can envision a day--remember when 
you first bought VCRs years ago and they were over $1,000? I 
think the cost will be driven down to the point, hopefully, 
that we will be able to have these in private homes. I think 
that will be where this thing goes.
    Mr. Brown. How many are sold a year right now?
    Mr. Vardell. I do not have those numbers.
    Mr. Conner. I know that the folks at Hewlett-Packard expect 
a doubling in their business next year, and they expect that 
growth rate to continue and even accelerate.
    Mr. Bilirakis. Does the State of Nevada require them in 
each of the casinos?
    Mr. Hardman. It is not a requirement in the State of 
Nevada. I know that is something we have approached Gaming 
Control on but, as of yet, no.
    Mr. Bilirakis. Any further questions of this gentleman?
    Mr. Green. Mr. Chairman?
    Mr. Bilirakis. Yes, please?
    Mr. Green. What prompted the decision in the State of 
Nevada for this casino or different casinos to do it?
    Mr. Hardman. The decision to put the AEDs in place is a 
decision based on each of the individual properties, so there 
are some properties that have, at this point, opted not to 
participate in the program, and I am under the impression they 
are feeling some liability pressures that maybe they are going 
to be implementing a program here shortly.
    Mr. Green. Did Nevada provide a liability limitation? I 
know the original bill--and we have a substitute that Mr. 
Stearns----
    Mr. Hardman. There was a liability coverage in our Good 
Samaritan legislation. Actually, the first group of properties 
that implemented an AED program--this was prior to Good 
Samaritan law actually existing--they took out an insurance 
rider to cover their perceived liability risks. Then the Good 
Samaritan law was in place in Nevada went through a revision to 
specifically address individuals who are compensated and who 
are expected to perform such duties as a part of their job. 
That was in the last legislative session.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Bilirakis. Thank you.
    All right. If there is nothing further, we will proceed to 
Mr. Lazar.
    Please proceed, sir.

                  STATEMENT OF RICHARD A. LAZAR

    Mr. Lazar. Thank you. Good morning, Mr. Chairman and 
members of the committee. It is a privilege to be here, and I 
must say that on Friday afternoon, when my cell phone range 
from committee counsel's office, this is the last place I 
expected to be on Tuesday.
    I am currently the CEO of a technology company involved in 
electronic evidence discovery. I was not being invited to come 
to Washington to pick up e-mail, however. I was invited to 
Washington to talk about something that I have been involved in 
in my prior 30-year career in emergency medical services--as an 
emergency medical care provider, a hospital trauma technician, 
EMS system administrator, EMS system designer, and for 12 years 
a lawyer defending medical malpractice cases brought against 
EMS providers and also involved heavily in the AED public 
policy arena. I have written a number of articles. My 
credentials are outlined in the written statement.
    Committee counsel asked me to come here today to provide 
something in the nature of expert witness support and inputs to 
the committee. Now, one always has to be suspicious of an 
expert, but I will do the best I can in providing some level of 
understanding about the Good Samaritan and liability issues and 
drivers that affect this clear public health threat.
    I will not spend any time talking about the public health 
threat. I think all the testimony you have heard this morning 
really supports the notion that a lot of people die of sudden 
cardiac arrest and that AEDs can help them. I do not think 
there is any real dispute about that.
    The issue then is: what can Congress do to incent the wider 
distribution and deployment of AEDs? In my view, the Cardiac 
Arrest Survival Act provides a very unique opportunity for the 
Congress to provide the right incentives for the right thing.
    One of the questions just asked is: why did casinos adopt 
AED programs? Why did American Airlines early on adopt AEDs for 
all of their airplanes, the first to do so back in 1996? 
Because it was the right thing to do. And whenever new 
technologies come alone, there are always early adopters, and 
that is what we have seen thus far.
    However, one of the things that you need to understand from 
a systems perspective is that, for AEDs to be truly effective, 
they do have to be widely deployed, because the critical factor 
is what I call ``AED response time.'' That is the time between 
the collapse, as you saw on the gentleman on the video, and the 
time of the first shock.
    EMS systems, by their very nature, cannot economically 
justify deploying the amount of resources, advanced cardiac 
life support resources, to insure early response times to all 
cardiac arrests. It is just not economically feasible.
    Well, medical device manufacturers have now created this 
magical device, and it truly is magical. It is safe, effective, 
easy to use. Frankly, it can be used without any training. And 
if you walk through O'Hare Airport, you will see them hanging 
on walls everywhere throughout the terminals. That is because 
you read the instructions, and within a minute to 2 minutes you 
can actually put the device on and make it work.
    Yet, we are not seeing them widely deployed, 
notwithstanding their ease of use, their relatively low cost, 
and the clear public health interest in them being widely 
deployed.
    One of the critical reasons why that is is because there is 
this perception among would-be purchasers and users of AEDs 
that if they do this they are going to get sued.
    Now, statistically, and if you look in the courts, that is 
not really justified. But you know what, perception is reality, 
and perception is, indeed, creating a huge barrier to the 
widespread deployment and adoption of AED programs.
    My hope is that the subcommittee and the full committee 
will adopt language that is appropriate and grant Good 
Samaritan immunity protection to the right classes for the 
right conditions and under the right circumstances. That will 
ensure that people's perception of liability concerns are, 
indeed, addressed. And so my intent this morning is to try to 
and provide some inputs to that.
    When businesses or organizations such as senior centers or 
Federal agencies or businesses or airlines or casinos think 
about adopting AED programs, they go through an algorithm, a 
decisionmaking process. Why should we do this? How much will it 
cost? And will we get sued? That is basically the first three 
questions they ask.
    Well, public education campaigns have done a wonderful job 
of addressing the ``why should we do this'' factor. The cost of 
the device is relatively inexpensive, so that tends not to be a 
barrier for most businesses. So what you really get to is the 
impediment of ``will we get sued,'' and the clear fear that 
they will, and therefore they choose not to go forward.
    The States have adopted a patchwork quilt, if you will, of 
laws that address AED deployment and use. Now, the problem with 
that is that there is wide disparity among the States in terms 
of the classes of people who are protected under the laws, the 
conditions that are imposed in order for immunity to apply, and 
other factors that really do not solve the problem, do not 
reduce the perception that there is a problem, and the degree 
of immunity offered, if any, within the States.
    In analyzing Good Samaritan issues and Good Samaritan 
protection, one must acknowledge that, in effect, what it does 
is it creates a buffer against lawsuits. It does make it more 
difficult to sue somebody if they are believed to have done 
something wrong, but that is a public policy issue, and in this 
instance the public policy really does support the adoption of 
Good Samaritan immunity in that it can reduce perceptions and 
cause people to do something which is the right thing.
    Now, the other thing to remember in this particular 
discussion is we are not talking about providing immunity to a 
third party who is perceived to have done something wrong--an 
auto manufacturer or tobacco company, whatever it might be. We 
are talking about an individual, such as Mr. Adams, walking 
down the street, and, through no fault of his own, collapsing 
from sudden cardiac arrest.
    The question is: what can public policymakers do to incent 
people to do the right thing? Nobody caused the cardiac arrest, 
but there is a means to help, so I think that distinction 
should be thought about in this discussion.
    In terms of addressing this issue in the Cardiac Arrest 
Survival Act, I would support the notion that immunity should 
be provided to all groups. In the current iteration, immunity 
is offered to both users and to acquirers under certain 
conditions. I would propose that the committee seriously 
consider adding trainers and physician medical overseers, and 
there is a reason for that. AED programs are not adopted in a 
vacuum. A company does not decide to buy these devices and 
throw them on the wall or throw them out in the manufacturing 
plant or throw them up in the terminal of Chicago's O'Hare 
Airport or in the casinos. They are done in the context of a 
comprehensive program, which includes a physician, because 
these are FDA-regulated devices which require medical 
oversight. They are prescription devices.
    Training is currently required almost everywhere in public 
access defibrillation programs, and so you do not get to users 
unless you address the full comprehensive nature of the 
program.
    So I would urge the committee to consider that fact, 
because if you do not, then what happens is the perceived 
liability barriers impact the programmatic elements of AEDs. So 
companies do not buy them because they think they are going to 
get sued for training, or they can't get a doctor to oversee 
the program, and therefore they will not buy the devices, and 
therefore they are not available to users. It is, 
unfortunately, a vicious cycle that goes the wrong way.
    So those are some of my general comments. I suspect that 
the committee will have specific questions on this issue. My 
suspicion is this is the most contentious element, if any, of 
the bill. I am happy to address specific issues.
    [The prepared statement of Richard A. Lazar follows:]
                 Prepared Statement of Richard A. Lazar
                              introduction
    Members of the Subcommittee. It is a privilege to appear before you 
in support of the Cardiac Arrest Survival Act of 1999. My interest in 
the Act stems from a nearly 30 year career in the emergency medical 
services (EMS) field. Beginning in the early 1970s, I served as an 
emergency medical technician and hospital emergency department trauma 
technician in California and Oregon where I had the opportunity to 
treat, first-hand, victims of sudden cardiac arrest. I then served as 
EMS system administrator for Oregon's second largest county. In this 
capacity, I had the opportunity to develop and implement system-wide 
advanced cardiac life support policies.
    As an EMS attorney, I spent over a decade defending medical 
malpractice lawsuits brought against emergency medical technicians, 
paramedics, ambulance services, fire agencies and local governments. 
Concurrently, I served as an emergency medical services systems 
consultant. In this capacity, I provided public policy and legal issues 
advice on the subject of public access defibrillation to medical device 
manufacturers, legislative and government bodies, and national 
associations. I have authored a number of articles about legal and 
public policy issues surrounding public access defibrillation 
including:

<bullet> Understanding AED Laws, Regulations and Liability Issues, 
        Challenging Sudden Death: A Community Guide to Help Save Lives 
        (chapter contribution). Catalyst Research & Communications, 
        Inc. (1998).
<bullet> Defibrillators Enter the Business Marketplace, Occupational 
        Safety and Health Magazine (August 1997).
<bullet> Are you prepared for a medical emergency, Business and Health 
        Magazine (August 1997).
<bullet> Legal, Regulatory Issues Impact AED Deployment, Journal of 
        Emergency Medical Services--Special Supplement (January 1997).
<bullet> AED Technology Seeks Widespread Dissemination, EMS Insider 
        (October 1996).
    I strongly believe early defibrillation programs should be 
supported in the public policy arena because, unlike virtually any 
other area of healthcare, such programs can clearly and quantifiably 
save lives. The Cardiac Arrest Survival Act affords Congress the 
opportunity to reduce real and perceived legal liability barriers 
currently impeding the widespread implementation of early 
defibrillation programs. From a public health standpoint, enactment of 
meaningful Good Samaritan immunity provisions within the Act has the 
capacity to increase access to early defibrillation thereby producing a 
significant reduction in the number of sudden cardiac deaths occurring 
annually in the United States. I have been asked to address the public 
policy drivers and legal liability issues associated with the Act. I 
welcome the opportunity to contribute to this important dialogue.
                          public health threat
    During the past two decades, the number of deaths and disabilities 
resulting from cardiovascular disease have steadily declined--with one 
notable exception. Sudden cardiac death takes approximately 250,000 
lives per year in the United States. In North America, sudden cardiac 
arrest (SCA) is one of the leading causes of death among adults. Once 
every one or two minutes, SCA strikes another individual suddenly and 
without warning.
                         public health solution
    Sudden cardiac arrest does not have to result in sudden death.. 
Successful resuscitation of SCA victims requires the systematic linking 
of a number of elements. Known as the ``chain of survival'', a cascade 
of events occurs designed to increase the probability of survival. 
These links include: Early access to the emergency medical response 
system, early CPR, early defibrillation, and early advanced cardiac 
life support.
    The ability to resuscitate SCA victims is a function of time, type 
and sequence of medical intervention strategies.<SUP>1</SUP> ``Early 
bystander cardiopulmonary resuscitation (CPR) and rapid defibrillation 
are the two major contributors to survival of adult victims of sudden 
cardiac arrest.'' <SUP>2</SUP> Of the two forms of treatment, rapid 
defibrillation represents the strategy with highest likelihood of 
success. In other words, defibrillation delivered as quickly as 
possible after onset of cardiac arrest has the capacity to greatly 
improve the victim's chances of survival.
---------------------------------------------------------------------------
    \1\ Eisenberg MS, et al. Cardiac Arrest and Resuscitation: A Tale 
of 29 Cities. Annals of Emergency Medicine. 1990;19:179-186.
---------------------------------------------------------------------------
    One of the most important tools now available to safely treat 
victims of sudden cardiac arrest is the automated external 
defibrillator (AED). AEDs are capable of recognizing life threatening 
cardiac rhythms and of converting those rhythms by delivering 
electrical countershocks. AEDs, if widely deployed and used, have the 
capacity to greatly reduce the number of sudden cardiac deaths 
occurring annually in the United States.
    That AEDs save lives is well documented in both the medical 
literature and real life. Traveling through Chicago's O'Hare 
International Airport on the way to this hearing, I observed the 
presence of AEDs on walls throughout the terminal. Since implementation 
of O'Hare's public access defibrillation program, a vast majority of 
victims experiencing sudden cardiac arrest in the airport's terminals 
have been successfully defibrillated. There clearly exists a compelling 
rationale supporting public policy initiatives which promote early 
defibrillation as a means of combating a well documented and treatable 
public health threat.
  legal liability barrier to widespread early defibrillation program 
                             implementation
    Fear of legal liability generally refers to the risk--perceived or 
actual--that a particular course of action will lead to a negligence 
lawsuit. Even the perception of increased risk affects decision-making 
behavior.
    In the quest toward large numbers of early defibrillation programs, 
there is a clear perception among would-be AED acquirers, users, 
trainers and medical overseers of heightened legal risk flowing from 
the acquisition, deployment, and use of these devices. As a result, a 
legal liability perception barrier significantly affects the prospect 
of widespread AED deployment. As noted by the American Heart 
Association (AHA), ``a potential disincentive to lay users of AEDs . . 
. is the threat of a personal injury claim.'' \2\
---------------------------------------------------------------------------
    \2\ Weisfeldt ML, et al. Public Access Defibrillation: A Statement 
for Healthcare Professionals From the American Heart Association Task 
Force on Automatic External Defibrillation. Circulation. 1995;92:2763.
---------------------------------------------------------------------------
    While public access defibrillation programs have been implemented 
in a number of locations throughout the U.S., the rate of program 
growth is significantly hampered by the perception of liability risk. 
The AHA notes the example of a Palm Springs senior center which turned 
down an AED donation because of liability concerns. I recently received 
a call from the lawyer for a senior residential facility in Florida who 
was asked to analyze liability risks before the facility would consider 
acquiring an AED. Such fears must be addressed if public access 
defibrillation is to become truly widespread.
    good samaritan immunity can lead to reduced sudden cardiac death
    In law, the term ``immunity'' refers to an exemption from a duty. 
One accorded immunity may be excused from conforming with an obligation 
otherwise imposed by law. Grants of immunity are created by case law 
and by statute. Good Samaritan immunity represents one duty exemption 
created by statute. From a public policy perspective, statutory grants 
of immunity are appropriate where a legislative body seeks to encourage 
certain types of conduct.
    Deployment and use of AEDs currently occurs amid a complex and 
disparate patchwork of federal, state, and local laws and regulations. 
A majority of states now have laws and regulations specifically 
addressing public access defibrillation. Some offer Good Samaritan 
immunity while others do not. Moreover, states vary markedly with 
regard to what user classes receive immunity protection, what 
conditions giving rise to immunity apply, and what degree of immunity 
is available. State uniformity is lacking and Good Samaritan immunity 
coverage is not available everywhere. In other words, there currently 
exists a Good Samaritan immunity gap between and among the states.
    The Cardiac Arrest Survival Act offers Good Samaritan immunity to 
AED users and others involved in the implementation of early 
defibrillation programs. Properly crafted, this form of immunity is 
capable of filling the state gap and addressing legal liability fears 
of those considering adoption of AED programs. By creating a legal 
liability immunity buffer, Congress can strongly encourage large-scale 
deployment and use of life-saving AEDs.
    A number of groups are typically involved in the coordinated 
implementation of early defibrillation programs. These include:

<bullet> Acquirers such as federal agencies, businesses, organizations 
        and individuals who recognize the benefits of early 
        defibrillation and devote money and human resources to the 
        acquisition and deployment of these devices;
<bullet> Physicians who are involved in providing training and medical 
        oversight;
<bullet> Trainers who provide training in the use of AEDs; and
<bullet> Users who actually retrieve and use AEDs to save victims of 
        sudden cardiac arrest.
    To be effective, the Act should provide meaningful protection to 
each of these affected groups. This approach will provide incentives 
for involvement of each group thus ensuring comprehensive and effective 
program development and implementation.
    Unlike other contexts in which the issue of immunity might be 
discussed, early defibrillation programs are designed to address a risk 
of harm not created by a third-party. Indeed, the risk relates to 
sudden cardiac arrest, a treatable medical condition experienced 
without warning and generally without external cause. By enacting Good 
Samaritan immunity protections, Congress has the power to truly lower 
legal liability risk barriers thus encouraging a variety of groups to 
establish programs designed to save victims of sudden cardiac arrest. 
These victims will, to a person, die without early defibrillation. I 
strongly urge Congress to pursue this goal.
    Thank you for the chance to contribute to this important public 
policy discussion. I welcome the opportunity to answer your questions.

    Mr. Bilirakis. Thank you very much, Mr. Lazar.
    The Chair will recognize himself.
    First, I would say that I plan to lose weight after 
listening to this testimony today.
    And I mean that. My wife is in Florida. She is not 
listening to this. She has lost her weight.
    We all should be very grateful, of course, to Mr. Stearns 
for this great work. Strangely enough, he has had to almost 
fight to get this legislation moving, which is pretty darned 
unfortunate. He and I share an awful lot of time during the 
football season watching the University of Florida Gators play, 
and I think the next question we should have of them is do they 
have one of these up there in that area, because we sometimes 
feel we might need one.
    Basically, my question is to Mr. Conner, but I guess it is 
to everybody. Are we saying that, considering the tremendous 
advantage and tremendous positives of the use of EADs, and the 
fact that--I do not know whether $3,000 is a lot or not. As 
related, obviously, to saving a person's life, it is peanuts. 
But in any case, I suppose, for an awful lot of small employers 
it might seem like an awful lot.
    Anyhow, why are so few AED programs implemented? Would we 
say it is because of the liability problem?
    Mr. Conner. I would say that is a big part of it. Awareness 
is building. The technology has only been around a few years, 
and it does take time.
    We have found that, when you talk about work places, there 
is a lead time to plan the budgeting cycle. It is not, as you 
said, something that is that much money, but, on the other 
hand, if you are going to buy 10 or 20 of these for your 
various plants, etc., it takes time.
    Importantly, we are looking for legislation around the 
country, and right now many States are passing such a 
legislation.
    I think it is just a matter of time, but it is building. I 
mentioned the two suppliers that we work with are projecting at 
least a doubling of sales next year. Again, that will 
accelerate.
    Mr. Bilirakis. Yes, sir?
    Mr. Lazar. Mr. Chairman, thank you.
    First of all, I do want to specifically commend 
Representative Stearns for your efforts over the years in 
trying to get this bill passed. It is quite admirable.
    Specifically addressing the Chair's question, it is true, 
in my view, that the biggest barrier currently to widespread 
distribution of AEDs is the liability fear. The States have 
tried to address this, and, as mentioned, 46 States currently 
have laws that at least address the issue but do not always 
address the Good Samaritan problem, so it does not cure the 
fear.
    Mr. Bilirakis. Dr. Hardman, in your capacity, your 
experience, your Ph.D., etc., have you attempted to have AEDs 
placed in, let's say, all of the casinos, which are virtually 
all of the public places in Las Vegas.
    Mr. Hardman. We have certainly urged the casino industry 
specifically--that was our initial target--to adopt similar 
programs. As a result of our successes, which you have 
witnessed here earlier today, we have had an outgrowth of that. 
We have had AEDs placed in our international airport, as I have 
said earlier. We have had them placed in our court systems. We 
have had them placed in our convention centers. We have had 
them placed in private businesses, as well.
    There is a huge push on the public sector. I know that some 
of the shopping malls--any area where you have a large number 
of people gathering are now looking at implementing AED 
programs in Las Vegas, just because of our successes that we 
have had in the casino industry.
    Mr. Bilirakis. Great. I commend you for your great work in 
that regard.
    Is it difficult to get people to be trained to use these, 
Mr. Conner?
    Mr. Conner. No, it really is not. We have a national 
standard that we apply, and, as I mentioned, it is about a 4\1/
2\ hour program, which includes the whole cycle of CPR----
    Mr. Bilirakis. The entire thing.
    Mr. Conner. [continuing] and then a refresher course on an 
annual basis. But no, it is not hard. As you saw Don 
demonstrate, the machine----
    Mr. Bilirakis. Well, it seems simple, but I guess anything 
is difficult if you do not know how to use it, and I can see 
where maybe some people might be frightened due to liability 
concerns.
    Mr. Conner. Right. But, in fact, it is easy. Again, I think 
over time the awareness of that fact will be critical to its 
development.
    Mr. Bilirakis. I would ask you, before I yield to Mr. 
Brown, to use us. Do not hesitate to write us, put in writing 
suggestions that you may have. Some things we may not be able 
to do, because, you know, jurisdiction problems and 
Constitution and things of that nature, but do not think about 
that--just defer judgment in that regard. Particularly, Mr. 
Lazar, we would like to hear from you. I know I speak for Mr. 
Stearns, too, when I say that.
    Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Lazar, your statement describes liability as a 
``potential disincentive to the lay use of AEDs.'' Have 
untrained users--or, for that matters, trained users, too--been 
sued for using the devices? Run through that. If so, what has 
been the outcome of some of those cases?
    Mr. Lazar. Well, that is an interesting question, 
Congressman, in that I am not aware of any lawsuits in the 
United States, and only one I am aware of in the United Kingdom 
in which a lawsuit arose over the use of the device.
    There are three notable cases in the United States 
surrounding a company or airline's failure to have an AED 
present. One involved Busch Gardens in Florida, in which a 
judgment was rendered because a 13-year-old died from sudden 
cardiac arrest and the park did not have a defibrillator. 
Lufthansa Airlines had a million-plus judgment against them for 
not having a defibrillator. And United Airlines was sued in 
1998 over a 1995 incident in which a man died on an airplane 
for lack of defibrillator.
    I am not aware of any suits, in contrast, involving the 
actual use of a defibrillator.
    Mr. Brown. Okay.
    Thank you, Mr. Chairman.
    Mr. Bilirakis. Mr. Stearns?
    Mr. Stearns. I thank you, Mr. Chairman.
    Robert, I think your testimony is very compelling, and I 
know how valuable your time is. I think what I understand is 
that you were in perfect health and the doctors were unable to 
find anything that was wrong with you, and yet they said, after 
it was all over, that you could still continue your life. I 
think that is a message to all of us, whether we think we are 
in perfect health or not.
    A friend of mine in my church who retired was on the golf 
course, and he hit a drive and had a cardiac arrest on the golf 
course in my home town and he died. They did not have an 
automatic external defibrillator.
    You mentioned in your testimony about this gentleman at the 
Pentagon that was running here in Washington, DC.
    I think the message should be in this subcommittee, Mr. 
Chairman, that this is not a case of just a person who has 
smoked a lot or drinks a lot or is overweight. This could 
happen to anyone in this room, and I think Robert's testimony 
is very compelling.
    Mr. Lazar, the question I have is, since all the States are 
starting to adopt some kind of Good Samaritan laws, in your 
opinion, why would the Federal Government need to step in if 
the States are doing it? You might just amplify why--and I 
agree that the Federal Government should, but you might amplify 
on that again.
    Mr. Lazar. It would be my privilege. First and foremost, 
the States are not uniform in their treatment of AED users or 
acquirers or trainers or medical overseers.
    Second, while many States have adopted laws that are called 
``Good Samaritan laws'' and speak to the issue of AED use, when 
you read the language of those laws carefully they really offer 
no protection. They are what I would call a ``placebo,'' in 
effect creating a standard of negligence which imposes 
liability in any event.
    So the question is: should there be some level of national 
uniformity in terms of a floor?
    Now, I recognize this is a political issue and I will not 
get in the middle of that, but I would suggest that it would be 
appropriate in this instance, because of the nature of this 
issue, that a national floor would, indeed, be appropriate. And 
by that I mean a minimum threshold below which the State should 
not be permitted to go.
    States are all over the map in terms of the level of 
protection they offer. And by that I mean whether it is a mere 
negligence standard imposing liability, which is no protection, 
on up through the kind of language in the current iteration of 
the bill, which is willful misconduct or criminal misconduct 
standard--something more than negligence. Willful or criminal 
misconduct, in my view, is the appropriate standard.
    They also differ in regards to the classes of people who 
are protected by the law and the circumstances in which that 
protection is granted.
    Mr. Stearns. Dr. Hardman, are you concerned? You indicate 
that you have trained more than 6,500 security officers. Are 
you ever concerned about this liability as being a problem in 
this training, because we have talked about extending this 
beyond just the people who are volunteering to do it, but also 
the providers, the manufacturers. We are talking also about 
trainers.
    Mr. Hardman. We are in a unique condition in Las Vegas 
area. As I stated earlier, I am employed for the fire 
department, and, as a result, we are almost immune to liability 
issues. There is a cap on what are liabilities. So I do not 
know if I am the appropriate person to ask on liability 
concerns as far as training goes. Perhaps Mr. Lazar would be 
the one to properly address that.
    Mr. Stearns. Yes. Go ahead.
    Mr. Lazar. Representative Stearns, if I understand 
correctly, it is the fire department, itself, which is 
providing the training in Nevada, and they have their own form 
of immunity. There are tort caps that relate to government 
bodies.
    Mr. Stearns. State law.
    Mr. Lazar. So there is immunity, and so they can train like 
crazy and----
    Mr. Stearns. Not be concerned.
    Mr. Lazar. [continuing] they are protected. That is right. 
Well, they should be concerned to do it right, but----
    Mr. Stearns. No, I know, but there is not that fear----
    Mr. Lazar. [continuing] there are some statutory 
protections.
    Mr. Stearns. [continuing] that Damocles sword hanging over 
them.
    Mr. Lazar. Correct.
    Mr. Stearns. Robert, tell me again, the people who actually 
pulled this out of the container--it came July 2, and July 3 
they unwrapped it. Who were these people?
    Mr. Adams. These people were Metro North technicians, or 
really people who did that, EMT people who all had other jobs, 
but they were Metro North people, which is a governmental 
agency, from what I understand. And I went and met them, and I 
met their families, and I went to Albany and met their bosses 
to make sure that these individuals got the proper respect, and 
I brought my family in to meet these individuals. But they were 
people. They are fire prevention people.
    Mr. Stearns. Were they specifically trained on the 
defibrillator?
    Mr. Adams. Absolutely. They were trained a week prior to 
this. It took them 7 months to cut through all the--as any 
governmental agency, sometimes it can be a little difficult. 
You have got many hurdles to cross. I said to this one 
gentleman, Mr. Hennessy, it was just incredible the foresight 
he had, like I said, 2 years ago. I mean, here we are 2 years 
later and we are having this discussion. Can you imagine, if 
you look back 2 years, when it was not the type of thing that 
people were writing about all the time or speaking about.
    This was a gentleman, Robert Hennessy, who was the chairman 
or chief of fire prevention for Metro North Railroad, the 
largest commuter railroad, I believe, in this country. They 
were the people who purchased it, and they were the people who 
went through and had the training done. They trained about 20 
to 25 people, and those people travel along in and around Grand 
Central Terminal, all with other jobs, but they are all on 
beepers. When I went down, like I said, they were able to get 
to me within about the first 2 minutes and start CPR. The 
actual machine arrived approximately 2 minutes later, from what 
I understand. So within 5 minutes they were--and I had to go 
through, from what I understand, two shocks, Dr. Hardman. But 
at that point in time, although my wife sometimes thinks I lost 
some brain cells through it all, fortunately, it is a really 
nice story.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Bilirakis. Certainly the good Lord was with you, wasn't 
he?
    Mr. Adams. Absolutely.
    Mr. Bilirakis. He put everybody in place, if it had to 
happen.
    Ms. Capps?
    Ms. Capps. This was one of the most moving hearings I have 
ever been a part of here, and each of you had a very important 
story to tell.
    Mr. Adams, what you are doing for the public I think seems 
to be a genuine response to some gifts given to you. It ought 
to be the motivation for all that we do here in response to 
this hearing today. I am just thinking what is the next bill, 
Mr. Stearns, that we want to do around this issue, because it 
is such a genuine, heart-felt need in our country, and each of 
you said just the right things to make your case. it is kind of 
like, well, now let's get busy. Let's get this done with.
    I am not going to take my 5 minutes, Mr. Chairman, but I 
just want to make absolutely clear--and we had the Red Cross in 
my community a couple of weeks ago, because I am interested in 
another topic, which is teaching CPR skills to high school or 
actually school kids that they can start--your son's age, Mr. 
Adams.
    Mr. Adams. Yes.
    Ms. Capps. And begin that chain of survival, with learning 
how to call 911, and then little by little. And the high school 
students said, ``Piece of cake. We can learn this.'' And they, 
of course, were most fascinated by the defibrillator that our 
local Red Cross brought forward.
    Now, any cases that we know of--I guess Mr. Hardman or 
Conner--of malfunction? Is this a pretty sure-fire thing that 
we should sign on to as a Congress?
    Mr. Conner. As a piece of technology, it is highly 
efficient. I am, personally, unaware. There was one situation 
with one of the brands where they had a problem with the 
battery, but other than that I am unaware.
    And I might add, you mentioned the Red Cross and kids. We 
are in the middle of a large effort. My wife happens to be here 
today, and she is a school teacher and volunteer, and, in fact, 
is teaching high school and grammar school kids first aid CPR 
in the Washington, DC area. This is something that I think we 
need to aggressively pursue.
    By the way, we are also training everybody that takes our 
basic CPR on AEDs. Our thinking is that the more awareness 
there is--this could be a person that is walking through O'Hare 
Airport----
    Ms. Capps. Exactly.
    Mr. Conner. [continuing] and there may not be a 
professional around, so that every opportunity we get we are 
doing that.
    Thank you for mentioning the Red Cross.
    Ms. Capps. And that might be a next step, because I do have 
legislation that--for those local communities that want to 
partner with their school districts and offer this kind of 
training. Public school teachers know that their hands are full 
with the required things. Providing the equipment to teach CPR 
and the defibrillators to demonstrate to high school kids will 
take community involvement, but I think we can step up and 
offer some resource and support for doing that, too.
    Yes, sir?
    Mr. Hardman. As far as the safety of the devices go, as I 
have said earlier, we have had over 200 applications of the AED 
in the Nevada area. Twenty-three times the AED was applied when 
technically the individual did not meet the criteria for it to 
be applied. Our criteria are that they are unconscious, they 
have no pulse, and they have no breathing. Despite the 
inappropriate application of the device, the AED that you saw 
earlier by the demonstration, as well as on the video, the 
computer algorithm internally interprets the electrical rhythm 
of the heart and appropriately identifies that no shock was 
required. So the energy is not even available to the user to 
deliver a shock if the victim is not in cardiac arrest or, more 
specifically, ventricular fibrillation. So with more than 200 
uses, we have not had any inappropriate shocks delivered as a 
result.
    Ms. Capps. It is really actually more fool-proof than CPR, 
isn't it?
    Mr. Hardman. Absolutely.
    Ms. Capps. Yes. Which is now universally accepted. It took 
a while for that, as well, but I think this is a matter of we 
are finally getting to where this is commonplace. We should 
just do all we can, I think, to speed it up, do our part here 
with this legislation and perhaps think of some other ways to 
encourage its more widespread adoption throughout the country.
    Mr. Bilirakis. You know, we have two bills on the floor 
that this subcommittee is responsible for. One is the 
children's health bill and the other is a breast cancer bill. I 
know many of us want to get on the floor for that. And, of 
course, we want to mark up this legislation. Hopefully I do not 
have to say anything further.
    Mr. Ganske?
    Mr. Ganske. Well, I was interested in the videotape, 
because I noticed that the gambling continued while the CPR was 
going on. It reminded me of a time a number of years ago when 
my wife and I were at a luau in Hawaii. A fellow dropped over 
and we provided CPR while the hula dancing continued.
    On a separate occasion, my next-door neighbor a few years 
ago was out jogging and died suddenly of a heart attack. I do 
not know that anyone would have found him in time or even had 
available a unit, but it sure would be nice if we had more of 
these units available around.
    What we are dealing with is a situation where there has not 
been a single lawsuit in the country related to this other than 
where the unit has not been available, and so this is a 
question of perception, probably more than reality. But I think 
perception determines reality, too.
    I am very pleased that Mr. Stearns has a substitute that I 
think improves the bill, particularly as it relates to the 
liability section, because in his original version--and I would 
be happy to enter into a colloquy with Mr. Stearns on this, or 
hear any comments from him--basically immunity is given in the 
original version to any person who maintains the device, tests 
the device, or provides training in the use of the device.
    Now, we have not had any cases where there has been a suit 
from this, but what I would be concerned about in legislation 
is where these devices become widespread but they are not 
properly maintained or tested and therefore do not work for a 
gentleman such as our testifier today.
    And so it appears to me Mr. Stearns corrects that because 
in his substitute he says, ``Any person who acquires the device 
is immune from such liability if the harm was not due to the 
failure of such acquirer of the device, i.e., to notify local 
emergency response or to properly maintain and test the device 
or to provide appropriate training in the use of the device.
    So, in my opinion, the substitute of Mr. Stearns 
considerably tightens up this liability section and improves 
it, and for that reason I will support the substitute and I 
thank Mr. Stearns for working on that, because I do not think 
we want to do a bill that has national implications that would 
actually weaken the good effects of these defibrillators in 
terms of them taking away an incentive for their proper 
maintenance and training in the use of those devices.
    I will yield back.
    Mr. Bilirakis. I thank the gentleman.
    Mr. Barrett to inquire?
    Mr. Barrett. It is a good bill. I am happy to be a co-
sponsor of it. I applaud Mr. Stearns. All of you said exactly 
what needs to be said. Let's do it.
    Mr. Bilirakis. Thank you, sir.
    Mr. Burr?
    Mr. Burr. Just very quickly, Mr. Chairman.
    Of the 250,000 individuals who are hit with cardiac arrest, 
does anybody have any statistics on how many of those are 
children?
    Mr. Conner. We believe it is very few, actually. I do not 
know. It is very few.
    And, by the way, the recommendation on the device is the 
person needs to be at least 60 pounds for the defibrillator to 
be used.
    Mr. Burr. Sixty pounds?
    Mr. Conner. Yes.
    Mr. Burr. Okay. I thank the chairman and also urge all the 
members to support this bill.
    Mr. Bilirakis. I thank the gentleman from North Carolina.
    Mr. Stupak?
    Mr. Stupak. Thank you, Mr. Chairman. I will be brief.
    As you know, I was a police officer for 12 years. We did 
not have defibrillators back then. I can tell you many stories 
of many people I tried to help who did not make it. We just did 
not have the modern equipment.
    I still spend a lot of time with the EMS, the fire 
fighters, police officers. They are asking for this 
legislation. I am a cosponsor of it.
    I would yield back my time and say let's move this 
legislation and get it to the full committee and on the floor 
for passage.
    I thank the witnesses today.
    Mr. Adams, do you have something you want to add?
    Mr. Adams. Mr. Stupak, I just want to pass this piece of 
knowledge. I live in White Plains, New York--a pretty 
significant city. Yesterday morning, I attended a press 
conference with the mayor of the city of White Plains, where 
the city purchased six defibrillators to be put in the police 
cars, trained over 60 fire fighters and police people, because 
those are, for the most part, even more so than the EMT people, 
what they term the ``first responders.'' In White Plains, they 
estimate the police normally can get to an individual within 3 
minutes. Now those people in the city of White Plains, where I 
am a resident, now have that protection. They have gone just 
like you said. I did not realize you had a background as a 
policeman, but many of those police people--and I applauded 
that, because I have been all over the country speaking on 
this, yet the city where I live did not have that protection, 
so I made sure I made myself available for that press 
conference, as well.
    Mr. Stupak. Well, my wife is the mayor of our small town of 
Menominee, and we now have three of them, and we did it through 
bake sales and everything else to get money to get them there.
    Mr. Adams. Terrific.
    Mr. Stupak. But we have them there and the police officers 
have them.
    Mr. Adams. I love to hear those stories. Thank you.
    Mr. Bilirakis. Mr. Adams, do you still practice law?
    Mr. Adams. I attempt to. But, as my father told me when he 
used to coach my Little League team, ``You make time for 
important things.''
    Mr. Bilirakis. Yes.
    Mr. Adams. So I make time for things like this.
    Mr. Bilirakis. And we are so very appreciative that all 
four of you had made time for this.
    I just feel, honestly, as strongly as we feel about this 
legislation, and as strongly as we feel we have got to get it 
through, and soon, I think there is more that can be done 
within the purview of our jurisdiction, if you will, and that 
sort of thing.
    Again, I repeat to you, help us to basically help an awful 
lot of people out there.
    Thank you so very much.
    This hearing is now over and we will line up for our 
markup. Thank you kindly, gentlemen.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    Prepared Statement of Health Industry Manufacturers Association
    On behalf of the Health Industry Manufacturers Association, we are 
pleased to submit testimony for the record in support of the H.R. 2498, 
The Cardiac Arrest Survival Act.
    The Health Industry Manufacturers Association (HIMA) is a 
Washington, D.C.-based trade association and the largest medical 
technology association in the world. HIMA represents more than 800 
manufacturers of medical devices, diagnostic products, and medical 
information systems. HIMA's members manufacture nearly 90 percent of 
the $68 billion of health care technology products purchased annually 
in the United States, and nearly 50 percent of the $159 billion 
purchased annually around the world.
    All of us know someone whose life has been made better by medical 
technology: a father who was able to leave the hospital in just a few 
days thanks to minimally invasive heart bypass technology; a friend who 
received a breakthrough implant that for the first time effectively 
treated her Parkinson's disease symptoms, a family member whose life 
was saved by an advanced diagnostic test. Medical technologies like 
these touch all of our lives.
    The findings of a recent survey confirm the value of technology. 
The survey of about 800 people found that 94 percent of Americans have 
a favorable view of medical technology and over 90 percent of people 
surveyed said that all patients should be able to have access to the 
newest medical treatments. HIMA is committed to improving patient 
access to new and breakthrough life-saving and life-enhancing medical 
technologies.
    The legislation before the Committee today will help ensure that a 
key segment of the population will have access to just such technology. 
Sudden cardiac arrest is one of this nation's leading medical 
emergencies, affecting more than 250,000 Americans each year.
    The key to a patient's survival is timely initiation of a series of 
events, referred to as the ``Chain of Survival.'' Weakness in any of 
the four critical steps in the chain--early access to emergency 
assistance (for example, calling 911); early cardiopulmonary 
resuscitation (CPR); early defibrillation; and early advanced life 
support--lessens the chance of survival and condemns the efforts of an 
emergency medical system to poor results. Every minute that passes 
before a cardiac arrest victim's heart is defibrillated--shocked back 
into rhythm--his or her chance of survival decreases by as much as 10 
percent.
    There are many stories of men and women who have survived sudden 
cardiac arrest, thanks to the availability of an automated external 
defibrillator (AED). AEDs are small, easy-to-use laptop size devices 
that can analyze heart rhythms to determine if a shock is necessary 
and, if warranted, deliver a life-saving shock to the heart. 
Defibrillation is the only way to return a heart to normal rhythm. No 
amount of CPR alone can accomplish this.
    Unfortunately, there also are many stories of people who did not 
survive. For example, Colonel Mike Moake, 47, was in the Pentagon when 
his cardiac arrest occurred. Traffic delays and the complexity of the 
Pentagon hindered medical response. If an AED had been available, he 
might be alive today.
    The Cardiac Arrest Survival Act is an important step in ensuring 
that people like Colonel Moake do not continue to die needlessly in 
federal facilities. For the thousands of Americans who work in or visit 
federal facilities each day, the Cardiac Arrest Survival Act will add 
peace of mind, reduce unnecessary and life-threatening minutes of 
delay, and empower people to take action to save lives.
    HIMA strongly supports H.R. 2498, The Cardiac Arrest Survival Act 
which directs the Secretary of Health and Human Services to develop 
recommendations for public access to defibrillation programs in federal 
buildings in order to improve the survival rates of people who suffer 
cardiac arrest in federal facilities.


                              <ALL>





</pre></body></html>
